                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        EPA Could Recover
                        More Indirect Costs
                        Under Reimbursable
                        Interagency Agreements
                        Report No. 12-P-0835              September 19, 2012




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:                               Paul Curtis
                                                   Margaret Hiatt
                                                   Edgar Dumeng-Roman
                                                   Robert Evans
                                                   Alfred Falciani
                                                   Kevin Ross
                                                   Phil Weihrouch




Abbreviations

EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
G&A           General and Administrative
GAO           U.S. Government Accountability Office
HQ            Headquarters
IA            Interagency Agreement
OCFO          Office of the Chief Financial Officer
OFM           Office of Financial Management
OGC           Office of General Counsel
OIG           Office of Inspector General
RIA           Reimbursable Interagency Agreement
RMDS          Resources Management Directive System
SA            Statutory Authority
SFFAS         Statement of Federal Financial Accounting Standards




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                    write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                  1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                    Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm              Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                 12-P-0835
                                                                                                       September 19, 2012
                        Office of Inspector General


                        At a Glance
                                                                                                                           \
Why We Did This Review              EPA Could Recover More Indirect Costs
Our objectives were to              Under Reimbursable Interagency Agreements
determine the methodology the
U.S. Environmental Protection        What We Found
Agency (EPA) uses to calculate
indirect cost rates for             EPA did not recover $11 million in indirect costs on funds-in RIAs. Federal
reimbursable interagency            entities are required to recognize the full cost of goods and services provided
agreements (RIAs), and              among federal entities; full cost includes both direct and indirect costs. For 54 of
whether EPA is applying the         59 RIAs reviewed, EPA did not bill other federal agencies the full amount of
correct indirect cost rates for     indirect costs. This occurred because:
selected RIAs.
                                           EPA exempted itself from recovering indirect costs on RIAs awarded
An interagency agreement is a               under 19 statutory authorities.
written agreement between                  EPA issued polices where indirect costs do not apply to RIAs awarded
federal, state, or local agencies           before the policies were effective nor to any agreement amendments.
through which goods or                     EPA issued policies stating that indirect rates in effect at the time the RIA
services are provided on a                  is negotiated will apply for the life of the RIA.
funds-out or funds-in basis.               Other miscellaneous calculating and billing errors occurred.
The term funds-in applies to an
interagency agreement in            We estimated that EPA could have recovered $11 million in indirect costs based
which EPA provides goods or         on rates for fiscal years 2010 and 2011. Based on amounts remaining in open
services to another agency or       agreements, we calculated an additional $2.5 million could be billed during the
to a state or local government      remaining project periods. The additional indirect costs recovered could be used
and is reimbursed for its           to pay for other environmental activities.
expenses.
                                    Recommendations and Agency Corrective Actions
This report addresses the           We recommend that the Chief Financial Officer revise Agency policy to include
following EPA Goal or               indirect costs in all RIAs; revise the rules and policies for future actions to include
Cross-Cutting Strategy              the ability to recover indirect costs and educate the EPA on the new policies
                                    while implementation is in progress; revise Agency policy to require that
	 Strengthening EPA’s              amendments to all RIAs include indirect costs based on current rates; correct the
  workforce and capabilities.       indirect cost rate billing errors noted; and develop policy and procedures to verify
                                    that correct indirect cost rates are used.

                                    EPA agreed with all our recommendations or agreed to take actions that satisfy
                                    the intent of the recommendations. The Agency has updated policy to clarify that
For further information, contact    indirect costs should be included in all RIAs, is correcting billing errors, and plans
our Office of Congressional and     to develop policy to ensure that correct indirect cost rates are used.
Public Affairs at (202) 566-2391.   Recommendation 4 is unresolved pending receipt of a date to correct billing
                                    errors.
The full report is at:
www.epa.gov/oig/reports/2012/
20120919-12-P-0835.pdf               Noteworthy Achievement

                                    EPA centralized interagency agreement activities within two service centers to
                                    increase consistency in operations and improve efficiency and effectiveness.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                 THE INSPECTOR GENERAL




                                         September 19, 2012

MEMORANDUM

SUBJECT:	 EPA Could Recover More Indirect Costs Under
          Reimbursable Interagency Agreements
          Report No. 12-P-0835


FROM:          Arthur A. Elkins, Jr. 


TO:            Barbara J. Bennett 

               Chief Financial Officer


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. In addition to providing us with a paper copy of your response,
please e-mail a Microsoft Word version to curtis.paul@epa.gov and hiatt.margaret@epa.gov.
We have no objections to the further release of this report to the public. We will post this report
to our website at http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact Paul Curtis
at (202) 566-2523 or Meg Hiatt at (513) 487-2366.
EPA Could Recover More Indirect Costs                                                                                          12-P-0835
Under Reimbursable Interagency Agreements


                                      Table of Contents
   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Noteworthy Achievement ..........................................................................................                  4


   Scope and Methodology.............................................................................................                 4


   Results of Review .......................................................................................................          5


   Conclusion...................................................................................................................      8


   Recommendations ......................................................................................................             8


   Agency Response and OIG Evaluation.....................................................................                            9


   Status of Recommendations and Potential Monetary Benefits..............................                                           10 




Appendices
   A          Details on Scope and Methodology...............................................................                        11 


   B          Indirect Costs That EPA Could Have Recovered .........................................                                 14 


   C          Potential Future Monetary Benefits...............................................................                      16 


   D          Agency Response ...........................................................................................            17 


   E          Distribution ......................................................................................................    21

Purpose
            With the Administration’s current focus on reducing the federal budget deficit, we
            performed this audit to determine whether the U.S. Environmental Protection
            Agency (EPA) was recovering all appropriate indirect costs related to
            reimbursable interagency agreements (RIAs). Our objectives were to determine:

                  The methodology EPA uses to calculate indirect cost rates for RIAs,
                   including the source of data used and composition of rates. 
                  Whether EPA is applying the correct indirect cost rates for selected RIAs.

Background
            An interagency agreement (IA) is a written agreement between federal, state, or
            local agencies through which goods or services are provided on a funds-out or
            funds-in basis. Funds-in refers to an IA through which EPA provides goods or
            services to another agency or to a state or local government and is reimbursed for
            its expenses. Under RIAs, EPA uses reimbursable authority provided by the
            Office of Management and Budget to perform IA activities.

            Criteria

            The Statement of Federal Financial Accounting Standards (SFFAS) Nos. 4 and 30
            establish standards and policies on the recovery of full costs (direct and indirect)
            for RIAs.

               	 SFFAS No. 4, Managerial Cost Accounting Concepts and Standards for
                  the Federal Government, states: “The managerial cost accounting
                  concepts and standards are aimed at providing reliable and timely
                  information on the full cost of federal programs, their activities, and their
                  outputs.” SFFAS No. 4 includes standards to determine the full costs of
                  government goods and services and recognize the costs of goods and
                  services provided among federal entities. Full cost is the total amount of
                  resources used to produce outputs (goods or services) and includes direct
                  and indirect costs. SFFAS No. 4 states that a federal entity providing
                  goods or services has the responsibility to provide the receiving entity
                  with information on the full cost of such goods or services either through
                  billing or other advice.

               	 SFFAS No. 30, Inter-Entity Cost Implementation, requires full
                   implementation of the inter-entity cost provision in SFFAS No. 4. By fully
                   implementing the provisions in SFFAS No. 4, this standard requires that:
                   “each entity’s full cost should incorporate the full cost of goods and
                   services that it receives from other entities. This standard requires full
                   implementation for reporting periods beginning after September 30,
                   2008.” 


12-P-0835                                                                                         1
            Statutory Authorities

            EPA started recovering indirect costs in 2005 for Oil Spill RIAs, in 2008 for
            Economy Act RIAs, and in 2009 for other cooperation authority RIAs. An Office
            of General Counsel (OGC) memorandum dated July 26, 2007, indicates that the
            two types of statutory authorities (SAs) for IAs that EPA uses most often are the
            Economy Act (31 U.S. Code 1535) and EPA’s cooperation authorities, such as
            Clean Water Act Section 104(b)(2) and Clean Air Act Section 103(b)(2).

                   The Economy Act is the authority for an IA when one agency
                   acquires goods or services from another federal agency and the
                   performing agency does not have an interest in providing the
                   goods or services, apart from its interest in performing the work
                   for the requesting agency. In contrast, EPA’s cooperation
                   authorities generally authorize the Agency to cooperate with other
                   entities, including federal agencies, in a broad range of specified
                   activities.

                   The cooperation authorities themselves are silent with respect to
                   payments between agencies for these particular types of costs.
                   However, the fact that the cooperation authorities are silent with
                   respect to payments between agencies for these types of costs
                   does not mean that such payments are unauthorized.

            The OGC memorandum also refers to other SAs that provide for reimbursement
            of the Agency’s costs. There are statutory authorities that expressly contemplate
            the use by EPA of another agency’s personnel, services, or other resources,
            referred to as utilization authorities. Certain utilization authorities expressly
            authorize EPA to pay for the personnel and associated indirect costs, as well as
            for travel, supplies, and equipment costs directly related to the IA project.

            In addition, the memorandum says that “some utilization authorities contemplate
            the use by EPA of another agency’s personnel and associated resources but do not
            address reimbursement of the other agency.” Further, “if EPA did not reimburse
            the agency providing assistance to EPA, the other agency would be using its
            appropriation to perform functions under EPA’s statutes and would augment the
            EPA appropriation that supports the activities in question.” OGC’s opinion is “the
            silence of the statutes regarding reimbursement does not foreclose reimbursement
            and, in fact, the better argument is that reimbursement is required.”




12-P-0835                                                                                       2
            Responsibilities

            The following offices are responsible for recognizing and recovering indirect
            costs on RIAs:

                	 The Office of the Chief Financial Officer’s (OCFO’s) Office of Financial
                   Management (OFM), Program Costing Staff, computes and disseminates
                   the indirect cost rates. 
                 Program offices ensure that indirect costs are assessed and negotiated on
                   IAs with other agencies.  
                 The Interagency Agreement Shared Service Centers review RIAs to
                   ensure the appropriate indirect rates have been negotiated into agreements. 
                 The Cincinnati Finance Center issues bills to the other agencies for
                   reimbursable direct and indirect costs. 

            Calculation of Indirect Rates

            EPA calculates separate indirect cost rates for agreements originating in the
            headquarters (HQ) general and administrative (G&A) offices, headquarters
            program offices, and each of the 10 regional offices.

            Indirect costs are calculated as a percentage of direct costs. For funds-in IA
            billings, the indirect cost rate is applied to the direct cost portion of the bill. The
            rates are updated annually and available on the Office of Grants and Debarment
            website. The Agency has established different cost pools and allocation bases for
            the different offices to identify the support organizations and their related costs
            that cannot be associated in a practical manner with a particular IA.

                    HQ G&A Rates: Pool costs include an allocable share of costs for
                    facilities, human resources, and Office of Personnel Management
                    inter-entity costs. Facilities costs are allocated based on the number of
                    full-time equivalents. Human resources and Office of Personnel
                    Management inter-entity costs are allocated based on personnel
                    compensation and benefits costs. The pools also include depreciation costs
                    incurred by these HQ offices, and HQ administrative and management costs
                    charged to each of these offices. The allocation base used to distribute the
                    HQ indirect cost pool to benefitting cost objectives is calculated by
                    subtracting the HQ indirect cost pool from total Agency costs.

                    HQ Program Office Rates: Pool costs include the three components
                    included in the HQ indirect cost pool as described above, and a separate
                    program office component added for each office. This component is
                    comprised of the administrative costs for each of the program offices for
                    which rates are computed. For example, the Office of Solid Waste and
                    Emergency Response cost pool is comprised of the HQ indirect cost pool,
                    plus the administrative costs of the Office of Solid Waste and Emergency


12-P-0835                                                                                             3
                   Response. The allocation base used to distribute the HQ program offices’
                   indirect cost pool to benefitting cost objectives is calculated by subtracting
                   the HQ indirect cost pool, excluding the administrative costs of the
                   respective program office, from total Agency costs.

                   Regional Program Office Rates: Pool costs consist of regional
                   administrative management and support expenses incurred by each region,
                   and an allocable share (by region) of nationwide costs for facilities and
                   human resources. Nationwide costs are those costs that benefit all
                   organizations, including regional offices. Facilities costs are allocated
                   based on the number of full-time equivalents. Human resource costs are
                   allocated based on personnel compensation and benefits costs, and a share
                   of the HQ non-program office costs (i.e., HQ G&A office costs) are
                   allocated to each region by applying the HQ indirect cost rate to total
                   regional costs. National management and support costs are primarily
                   comprised of those costs incurred by HQ non-program offices. The
                   allocation base used to distribute the entire regional indirect cost pool to
                   benefitting cost objectives is equal to total regional non-G&A costs.

Noteworthy Achievement
            EPA centralized IA activities within two service centers to increase consistency in
            operations and provide a more streamlined, efficient, and effective performance of
            IA functions.

Scope and Methodology
            We conducted our audit from January 11, 2012, through June 11, 2012, in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our conclusions based on our audit objectives.

            We reviewed EPA policies and laws and regulations concerning full costing, and
            the ability to recover expenses under IAs. We performed a Compass Data
            Warehouse Accounts Receivable Query for fiscal years (FYs) 2010 and 2011
            using the following reporting categories:

                  01-Reimbursable IAs (Direct Costs only) 
                  17-Reimbursable IAs (Full Cost IAs) 
                  56-Oil Spill Indirect Costs 
                  57-All Other IA Indirect Costs 
                  76-DWH (BP) Oil Spill Indirect Costs 




12-P-0835                                                                                       4
            The population consisted of 384 IAs totaling $244,949,192 in billings for
            FYs 2010 and 2011. We performed a statistical sample of the population to select
            59 RIAs totaling $220,592,610 in direct and indirect costs billed. We interviewed
            OGC staff on interpreting SAs, and OCFO staff on indirect cost rate policies and
            developing indirect cost rates. We reviewed spreadsheets and other documents
            containing the detailed calculations and methodology supporting the reimbursable
            indirect cost billing rates for funds-in IAs. We reviewed IA files and conducted
            interviews at the Cincinnati Finance Center and the East and West Interagency
            Agreement Shared Service Centers.

            Appendix A contains further details on our scope and methodology.

Results of Review
            EPA could have recovered over $11 million in funds-in RIAs billed to other
            federal agencies. For 54 of 59 RIAs reviewed, EPA did not bill other federal
            agencies the full amount of indirect costs. SFFAS No. 4 requires federal entities
            to recognize the full cost of goods and services provided among federal entities;
            full cost includes both direct and indirect costs. EPA did not recover all indirect
            costs on RIAs because:

                  EPA policies have been interpreted as excluding indirect costs for 15 RIAs
                   awarded under 19 SAs. 
                  EPA policies requiring indirect costs do not apply to RIAs awarded before
                   the policies were effective nor to any amendments for 23 agreements. 
                  EPA policies state that indirect rates in effect at the time the RIA is
                   negotiated will apply for the project period of 13 RIAs. 
                  Other miscellaneous errors occurred in calculating and billing indirect
                   costs, such as applying an incorrect rate.  

            Based on the unbilled amounts remaining on open agreements, we calculated that
            an additional $2.5 million of indirect costs could be billed during the remaining
            project periods. The additional indirect costs recovered could be used to pay for
            other environmental activities. Appendix B provides calculations for costs EPA
            could have recovered.

            EPA Did Not Recover Indirect Costs Based on the Statutory Authority

            EPA exempted itself from recovering indirect costs on RIAs awarded under
            19 different SAs—such as the Foreign Assistance Act, Homeland Security Act,
            and Intergovernmental Personnel Act—for which exemptions do not appear
            warranted. In addition, EPA is not pursuing recovery of indirect costs under the




12-P-0835                                                                                         5
                 Robert T. Stafford Disaster Relief and Emergency Assistance Act (Stafford Act).1
                 However, the Stafford Act, under which the Federal Emergency Management
                 Agency and EPA operate disaster relief efforts, does not prevent another federal
                 agency from recovering indirect costs. Stafford guidance states that agencies that
                 qualify and may be seeking reimbursement must submit certified annual overhead
                 rate proposals to the Federal Emergency Management Agency for approval prior
                 to billing. Office of Management and Budget Circular A-87 should be used as a
                 guide for this purpose. Indirect cost pools must be defined to explain how the
                 costs are derived and applied. Indirect rates should be negotiated with the Federal
                 Emergency Management Agency annually.

                 EPA did not recover indirect costs under certain SAs because EPA policies have
                 been interpreted as excluding indirect costs for RIAs awarded under SAs other
                 than the Economy Act or cooperation authorities. However, OCFO’s January 26,
                 2009, Policy Procedure, Resources Management Directive System (RMDS) 2540-
                 13-P1, Cost Accounting Methods: Agency Indirect Cost Allocation System for
                 Funds-In Interagency Agreements, says that “EPA’s policy is to recover the full
                 cost of IAs, consistent with the authority for a particular IA, the circumstances
                 involved, and the nature of the costs for which payment is made.” EPA’s
                 exemption of certain statutory authorities stems from OCFO’s January 26, 2009,
                 Policy Technical Interpretation (RMDS 2540-13-T1) Cost Accounting Methods:
                 Full Cost Funds-In Interagency Agreements, which clarifies the types of funds-in
                 IAs subject to full cost billing by EPA. The technical interpretation clarifies that
                 indirect costs shall be assessed under the Economy Act, and are authorized under
                 the cooperation authorities it lists and the 1996 National Defense Authorization
                 Act. EPA followed its technical interpretation and did not include indirect costs
                 on RIAs with statutory authorities other than those specified. However, OCFO
                 staff stated that no SA should prevent EPA from recovering its full cost under
                 funds-in IAs unless they expressly prohibit recovery of full costs. OGC staff
                 believed there was little if anything in the statutes governing EPA’s work with
                 other federal agencies that prevents EPA from recovering all of its costs.

                 We estimate that EPA could have recovered $6.4 million on 15 agreements
                 originally exempted based on SA had EPA billed indirect costs using the
                 prevailing indirect cost rates in effect during FYs 2010 and 2011.

                 EPA Did Not Recover Indirect Costs on RIAs Awarded Before
                 Polices Were Effective

                 According to established Agency guidance, EPA started recovering indirect costs
                 in 2005 for Oil Spill RIAs, 2008 for Economy Act RIAs, and 2009 for other
                 cooperation authority RIAs. Prior to these dates, EPA did not recover indirect


1
  The Act provides “…an orderly and continuing means of assistance by the Federal Government to State and local
governments in carrying out their responsibilities to alleviate the suffering and damage which result from such
disasters [as floods, earthquakes, etc.]….”


12-P-0835                                                                                                         6
            costs on RIAs citing these SAs. On RIAs awarded before these dates that were
            subsequently amended, EPA also did not recover indirect costs.

            RMDS 2540-13.1, Agency Indirect Cost Allocation System, requires IAs
            authorized by the Economy Act negotiated on or after January 28, 2008, to
            include indirect costs. RMDS 2540-13-P1 and technical interpretation 2540-13-
            T1 further required funds-in IAs awarded under cooperation authorities on or after
            January 26, 2009, to include indirect costs. Neither policy applies to funds-in IAs
            negotiated or awarded before the date of the policies or to any subsequent
            amendments to the agreements. OCFO staff agreed that the current policy could
            be revised so that amendments to all RIAs include indirect costs.

            Based on our analysis using the prevailing indirect cost rates in effect during
            FYs 2010 and 2011, we estimate that EPA could have recovered $3.5 million in
            indirect costs on 23 agreements awarded before indirect cost polices were
            effective.

            EPA Did Not Recover Indirect Costs Based on Actual Indirect Rates
            in Effect for the Entire RIA Project Period

            EPA did not recover indirect costs based on the indirect cost rates in effect over
            the entire project period for some RIAs. Indirect cost rates for funds-in IAs are
            computed and disseminated by OFM each year. However, EPA applied the
            indirect cost rate in effect at the time the RIA was negotiated throughout the entire
            project period of the original award and any amendments.

            EPA Policy 2540-13-P1 states that the indirect rates in effect at the time an IA is
            negotiated will apply for the project period of the IA. However, staff in OGC and
            OCFO agreed that RIAs, if amended, could be re-negotiated to include current
            indirect cost rates.

            We estimate that EPA could have recovered an additional $601,774 in indirect
            costs based on our calculation of the difference between applying the prevailing
            FYs 2010 and 2011 indirect cost rates and the fixed indirect cost rates in effect at
            the time of award to the FYs 2010 and 2011 direct costs billed for 13 agreements.

            Other Reasons Why EPA Did Not Recover All Indirect Costs

            We found that EPA did not recover over $584,264 of indirect costs for three RIAs
            tested. For example, the Agency indirect cost policy for Economy Act IAs
            became effective January 28, 2008. However, we identified one RIA awarded on
            February 20, 2008, with the Economy Act cited as the SA, without including
            applicable indirect costs of about $376,727. We identified an RIA where EPA did
            not recover $6,564 of indirect costs because the Agency used an FY 2009 indirect
            cost rate instead of the FY 2010 rate. The FY 2010 rate was applicable when the
            agreement was awarded in FY 2010. We identified another RIA where EPA did



12-P-0835                                                                                      7
            not recover approximately $200,973 because the Agency charged the direct costs
            to one agreement and the indirect costs to another agreement. As a result, EPA
            billed the direct costs in FY 2011 and has not billed any indirect costs.

Conclusion
            EPA could have recovered an additional $11 million in indirect costs in FYs 2010
            and 2011 from other federal agencies. Appendix B provides details, while table 1
            shows the overall results of our analysis of amounts that could have been recovered.

            Table 1: Indirect costs that EPA could have recovered
                                                                                       Estimated amount of
                   Reason for not recovering                        No. of           indirect costs that could
                          indirect costs                         agreements            have been recovered
             Excluded under 19 SAs                                    15                    $6,353,482a
             Awarded before policy effective                          23                      3,467,348a
             Negotiated rates used over life of RIA                   13                        601,774b
             Subtotal amounts not billed                                                   $10,422,604
             Errors in costs billed                                      3                      584,264
             Total                                                      54                 $11,006,868
            Source: Office of Inspector General (OIG) analysis
               a	
                     We multiplied the prevailing indirect cost rates in effect during FYs 2010 and 2011 by the
                     amount of direct costs billed during each year to calculate the amount of indirect costs
                     EPA did not recover.
               b	
                     We estimated the amount based on the difference between applying the FYs 2010 and 2011
                     indirect cost rates to direct costs billed each year and the amount of indirect costs billed for
                     the selected agreements.

            Based on the unbilled amounts remaining on the 22 open agreements, we
            calculated that an additional $2.5 million of indirect costs could be billed during
            the remaining project periods. The additional indirect costs recovered could be
            used to pay for other environmental activities. Appendix C provides our
            calculation of these future monetary benefits.

Recommendations
            We recommend that the Chief Financial Officer:

                    1.	 Revise Agency policy to clarify that indirect costs should be included in
                        all RIAs unless a determination has been made that an SA used for an RIA
                        specifically exempts charging of indirect costs.

                    2.	 Revise the rules and policies for future actions to include the ability to
                        recover indirect costs and educate the EPA on the new policies while
                        implementation is in progress.




12-P-0835                                                                                                           8
               3.	 Revise Agency policy to require that amendments to all RIAs include
                   indirect costs based on current indirect rates.

               4.	 Correct the indirect cost rate billing errors.

               5.	 Develop policy and procedures to ensure that the correct indirect costs
                   rates are used.

Agency Response and OIG Evaluation

            The Agency agreed with four of the five recommendations. The Agency has
            updated policy to clarify that indirect costs should be included in all RIAs and
            require that amendments to all RIAs include indirect costs based on current
            indirect rates. The Agency is correcting billing errors and plans on developing
            policy and procedures to ensure that the correct indirect cost rates are used. We
            concur with the Agency’s actions.

            The Agency disagreed with the second recommendation that stated EPA should
            amend RIAs awarded prior to the policy effective dates to include the ability to
            recover indirect costs, indicating that to do so would be impractical. While we
            agree that it is impractical to amend all agreements awarded prior to the policy
            effective dates, our intent was to recommend considering the recovery of indirect
            costs on any future amendments to existing agreements. In its response the
            Agency stated it has agreed to revise the rules and policies for future actions and
            has begun this process. Therefore, the Agency’s actions satisfy the intent of our
            recommendation. Recommendation 4 is unresolved pending receipt of a date to
            correct billing errors.




12-P-0835                                                                                         9
                                         Status of Recommendations and
                                           Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed-To
    No.      No.                           Subject                        Status1      Action Official           Date      Amount      Amount

     1        8     Revise Agency policy to clarify that indirect costs     C       Chief Financial Officer    07/11/12      $2,524
                    should be included in all RIAs unless a
                    determination has been made that an SA used for
                    an RIA specifically exempts charging of indirect
                    costs.

     2        8     Revise the rules and policies for future actions to     C       Chief Financial Officer    07/11/12
                    include the ability to recover indirect costs and
                    educate the EPA on the new policies while
                    implementation is in progress.
     3        9     Revise Agency policy to require that amendments         C       Chief Financial Officer    07/11/12
                    to all RIAs include indirect costs based on current
                    indirect rates.

     4        9     Correct the indirect cost rate billing errors.          U       Chief Financial Officer                   $584

     5        9     Develop policies and procedures to ensure that the      O       Chief Financial Officer    12/15/12
                    correct indirect cost rates are used.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0835                                                                                                                                    10
                                                                                      Appendix A

                  Details on Scope and Methodology
We reviewed EPA’s methodology for calculating the indirect costs on RIAs. OFM provided us
with electronic spreadsheets containing the detailed calculations and methodology supporting the
reimbursable indirect cost billing rates for funds-in IAs. We verified the mathematical accuracy
of the indirect cost rates using the FY 2010 rates for HQ G&A offices, HQ program offices, and
regional offices. We reviewed OCFO’s method for computing both the indirect cost pools and
the allocation base used to distribute the indirect costs.

We reviewed OCFO and Grants and Interagency Agreement Management Division policy and
technical documents related to funds-in IAs and indirect costs. We also reviewed OGC’s
memorandum concerning the Reimbursement under Interagency Agreements of Personnel,
Indirect, and Travel Costs, and the Interagency Agreement Policies and Procedures Manual. We
reviewed standards promulgated by the Federal Accounting Standards Advisory Board.

We conducted interviews with the OGC’s Civil Rights and Finance Law Office and with OFM to
understand how EPA determines the SAs it cites when entering into IAs, and how the SAs are to
be interpreted for full cost recovery. We reviewed selected SAs for language concerning
reimbursements of costs between federal agencies.

We generated a list of RIAs with billings from October 1, 2009, through September 30, 2011,
using EPA’s Compass Data Warehouse Accounts Receivable Query. We used reporting
categories that EPA uses in its billing system to properly categorize accounts receivables as a
basis for pulling our data. The population consisted of 384 IAs totaling $244,949,192 in billings
for FYs 2010–2011. We performed a statistical sample of the population to select 59 RIAs
totaling $220,592,610 in direct and indirect costs billed.

We reviewed spreadsheets and other documents containing the detailed calculations and
methodology supporting the reimbursable indirect cost billing rates for funds-in IAs. We
conducted interviews with the Cincinnati Finance Center to determine how indirect costs are
billed. We also examined the IAs and amendments maintained by the Cincinnati Finance Center
for our 59 sampled RIAs. We conducted interviews about the IA process with staff in the East
and West Interagency Agreement Shared Service Centers. We also examined the IA files
maintained by the service centers.

To determine the amount of indirect costs EPA could have recovered, we obtained the billed
direct costs for FYs 2010 and 2011 and multiplied them by the appropriate indirect cost rates in
effect when the agreement was awarded to arrive at the billed indirect costs. We then multiplied
the same billed direct costs for FYs 2010 and 2011 by the prevailing FYs 2010 and 2011 indirect
cost rates to arrive at the indirect costs that could have been billed. We calculated the difference
between the billed indirect costs and the amount that could have been billed to arrive at the
difference, which is the amount that could have been billed if the indirect cost rates were
adjusted based on the prevailing FYs 2010 and 2011 rates.



12-P-0835                                                                                         11
To determine the amount of future monetary benefits, we subtracted the total amount billed
through September 30, 2011, from the total amount awarded for the 22 active RIAs. We applied
the FY 2012 indirect cost rates to the outstanding balances of each agreement. We calculated
$2.5 million in potential future monetary benefits to be obtained if EPA implemented our
recommendations.

Prior Reviews

We researched prior EPA OIG and U.S. Government Accountability Office (GAO) reports
related to full costing and the recovery of indirect costs. We noted one pertinent EPA OIG report
and one GAO report:

   	 EPA OIG Audit Report No. 2000-P-0029, “Follow-up on Headquarters Interagency
      Agreements,” September 29, 2000: The audit found that EPA continued to transfer an
      unknown amount of its resources to other agencies in violation of the Economy Act. EPA
      was not being reimbursed for the full cost of its work under Economy Act IAs. EPA was
      not billing other agencies for indirect costs related to performing work or furnishing
      materials.

   	 GAO Report RCED 94-196, “EPA Has Opportunities to Increase Recoveries of Costs,”
      September 28, 1994: The report noted that EPA, by excluding some indirect costs
      including research, development, and site assessment costs, had lost $2.9 billion of the
      $8.7 billion it spent on cleanup actions. Although EPA was considering broadening its
      definition of recoverable indirect costs, it had not set a date for adopting a final rule.
      GAO recommended that to ensure maximum recovery of EPA cleanup costs from the
      parties responsible for these costs, the EPA Administrator should expedite the issuance of
      the regulation on indirect costs. EPA implemented the recommendation.

Internal Control Review

In planning and performing our audit, we reviewed management controls related to our audit
objectives. We examined EPA’s FY 2011 Federal Managers’ Financial Integrity Act Annual
Assurance Letters issued by the regional administrators and assistant administrators for the
various EPA programs to identify any weaknesses pertaining to indirect costs applied to RIAs.
There were no material weaknesses identified for Office of Administration and Resources
Management or OCFO pertaining to indirect cost rates on RIAs.

We examined EPA’s Office of Management and Budget Circular A-123 Appendix A review of
internal controls to identify any weaknesses related to indirect costs applied to funds-in
(reimbursable) IAs. We did not note any weaknesses related to indirect costs in EPA’s A-123
review of internal controls.

We obtained an understanding of control activities through reviews of EPA’s policies, guidance,
and directives related to full costing and indirect costs. We obtained an understanding of the
indirect costing process through review of background information, indirect cost rates, and a
preliminary research walk-through. We did not review the internal controls over EPA’s


12-P-0835                                                                                       12
Integrated Financial Management System from which we obtained information, but relied on
reviews of systems conducted during the audit of EPA’s FY 2011 financial statements. While the
Agency has established policies for calculating indirect cost rates and billing indirect costs on
IAs, based on our audit, the polices did not provide adequate assurance of compliance with
SFFAS for recognizing and billing the full amount of indirect costs for goods and services
provided to other federal agencies.




12-P-0835                                                                                     13
                                                                                           Appendix B

           Indirect Costs That EPA Could Have Recovered
                                                                                                Difference
                                                                                                   (some
                                                                Indirect                        differences
                                                 Direct costs    costs         Indirect costs      due to
 Agreement no.               Other agency           billed       billed           per OIG1       rounding)
MA1909DRTN2        DISASTER FINANCE CENTER          $791,671           $0           $111,798       ($111,798)
MA1980DRMO1        DISASTER FINANCE CENTER            205,743              -           34,215        (34,215)
MA1980DRMO4        DISASTER FINANCE CENTER            813,161              -          135,229       (135,229)
RW96954025         US COAST GUARD - Army-C.                 7              -                1             (1)
RW19923244         DOS/OES-DRL/EX/FMD                 500,000              -           30,800        (30,800)
RW57955751         DEPARTMENT OF DEFENSE              584,080              -           81,811        (81,811)
RW70957688         DHS                                772,500              -           48,734        (48,734)
RW96944308         USACE-C/O USACE FINANCE            369,009              -           56,207        (56,207)
MA1981DRND2        DISASTER FINANCE CENTER          1,276,029              -          223,305       (223,305)
RW19923251         DOS/OES-DRL/EX/FMD               1,560,000              -          105,045       (105,045)
RW19923377         DOS/OES-DRL/EX/FMD               2,500,000              -          182,500       (182,500)
RW19923463         DOS/OES-DRL/EX/FMD               1,300,000              -           88,140        (88,140)
RW96950522         COE/NEW ORLEANS                 17,519,843              -        2,316,721     (2,316,721)
RW96950527         COE/NEW ORLEANS                 19,345,178              -        2,545,061     (2,545,061)
RW97922769         DEPT OF DEFENSE                  5,963,824              -          393,915       (393,915)
Subtotal: Indirect costs excluded under 19 SAs                                                   ($6,353,482)
MA1604DRMS5        DISASTER FINANCE CENTER             $8,072          $0                $483          ($483)
RW12922688         DEPT OF AGRICULTURE                102,797              -           11,670        (11,670)
RW13922088         DOC/NOAA COSTAL SERVICE            136,803              -           10,862        (10,862)
RW14955746         DOI/OIA                             75,549              -           10,533        (10,533)
RW19922450         DOS/OES-DRL/EX/FMD               1,160,130              -           82,687        (82,687)
RW19922655         DOS/OES-DRL/EX/FMD                 954,783              -           84,180        (84,180)
RW69922499         FED. HIGHWAY ADMIN.              1,044,151              -          116,558       (116,558)
RW70940324         DHS                              1,007,484              -          157,858       (157,858)
RW96922535         Corps of Engineers-US Army          22,863              -            1,452         (1,452)
RW75922609         DHHS/CDC/ATSDR/FMO/AP            1,130,775              -           71,925        (71,925)
RW75922615         DHHS/CDC/ATSDR/FMO/AP              638,140              -           73,234        (73,234)
RW75948011         DHHS/CDC/ATSDR/FMO/AP               44,848              -            6,346         (6,346)
RW89922396         DOE, OFFICE OF HDQTRS DIV          169,834              -           11,101        (11,101)
RW89945955         US DEPARTMENT OF ENERGY          1,235,905              -          173,482       (173,482)
RW96950504         COE/NEW ORLEANS                    233,834              -           35,505        (35,505)




    12-P-0835                                                                                        14
                                                                                                                       Difference
                                                                                                                          (some
                                                                                   Indirect                            differences
                                                                Direct costs        costs         Indirect costs          due to
   Agreement no.                   Other agency                    billed           billed           per OIG1           rounding)
 RW96950520             COE/NEW ORLEANS                            1,081,192                  -          154,929              (154,929)
 RW57921609             DFAS-COLUMBUS                                   1,102                 -               118                 (118)
 RW58950477             DISASTER FINANCE CENTER                    3,504,005                  -          472,642              (472,642)
                        DEPT OF HOMELAND
 RW70939856                                                        1,366,884                  -          121,063              (121,063)
                        SECURITY
 RW72922607             USAID/EL SALVADOR                          1,693,217                  -          110,811              (110,811)
 RW86921823             DEPT OF HUD                                1,917,656                  -          177,393              (177,393)
 RW89939695             DOE, OFFICE OF HDQTRS DIV                  1,700,000                  -          148,410              (148,410)
 RW96950486             COE/NEW ORLEANS                           10,907,667                  -        1,434,106             (1,434,106)
 Subtotal: RIAs awarded before the policy effective date                                                                 ($3,467,348)
 RW14957875             DOI-US GEOLOGICAL SURVEY                     $98,651           $7,350              $8,810              ($1,460)
 RW17923209             DFAS-CLEVELAND                               671,608           86,369            103,095               (16,726)
 RW69944293             FED H'WAY ADM-AOM                             22,098            2,901               2,955                    (53)
 RW75922992             DHHS-OFC FIN MGMT, NIH                       679,380           62,163              86,213              (24,050)
 RW89923247             DOE FIN/ACCTNG SVCE                           44,692            5,975               7,164                (1,189)
 N10036-HQ              US COAST GUARD                             4,131,918          262,377            303,572               (41,195)
 N10036-R4              US COAST GUARD                             3,125,089          416,887            471,780               (54,893)
 N10036-R6              US COAST GUARD                             7,135,013          936,114          1,053,769              (117,655)
 RW19923042             DOS/OES-DRL/EX/FMD                         4,922,905          377,095            520,351              (143,257)
                        DEPT OF HOMELAND
 RW70957613                                                        1,277,030          150,690            168,882               (18,193)
                        SECURITY
 RW70957863             DHS-BFC                                    1,480,592           94,018            111,637               (17,619)
 RW72923073             USAID M/FM/CMP                             1,388,602          106,367            143,220               (36,853)
 RW95922996             R. ACCTBLTY&TRANSP BD                     13,050,750          687,775            816,405              (128,631)
 Subtotal: Negotiated rates used over life of RIA                                                                            ($601,774)
 RW12923178             USDA-RURAL DEVELOPMENT                      $251,401          $19,257            $25,821               ($6,564)
 RW12923097             DOA, USDA FOREST SERVICE                   1,466,958                  -          200,973              (200,973)
 RW75922711             DHHS-NIH/OFM/GAO                           6,085,561                  -          376,727              (376,727)
 Subtotal: Indirect costs excluded for other reasons                                                                         ($584,264)
 Total                                                                           $13,215,336        $24,222,205        ($11,006,868)
Source: OIG analysis
   1
       We multiplied the billed direct costs for FYs 2010 and 2011 by the appropriate indirect cost rates in effect during
       FYs 2010 and 2011 to arrive at the amount of indirect costs that could have been recovered.




       12-P-0835                                                                                                                15
                                                                                           Appendix C


                       Potential Future Monetary Benefits
                                                                                         Indirect
                                                                                           cost
 Agreement                                               Amount billed    Remaining        rate      Monetary
    no.                Agency            Total award      at 9/30/11       balance        (2012)      benefits
RW14955746      DOI/OIA                    $190,000.00      $138,975.67    $51,024.33    10.27%        $5,240.20
RW19922450      DOS/OES-DRL/EX/FMD        2,995,000.00     2,735,932.18    259,067.82     4.49%        11,632.15
                DEPARTMENT OF
RW57955751                                1,288,316.00      876,104.42     412,211.58    10.27%        42,334.13
                DEFENSE
RW69922499      FED. HIGHWAY ADMIN.       3,341,970.00     1,895,440.42   1,446,529.58   7.55%        109,212.98
                DEPT OF HOMELAND
RW70940324                                1,650,999.00     1,197,237.82    453,761.18    11.12%        50,458.24
                SECURITY
                DISASTER FINANCE
RW70957688                                1,571,168.54      772,499.81     798,668.73    6.44%         51,434.27
                CENTER-DHS
RW75922609      DHHS/CDC/ATSDR/FMO/AP     3,208,797.00     1,923,703.00   1,285,094.00   4.36%         56,030.10
RW75922615      DHHS/CDC/ATSDR/FMO/AP     1,750,000.00     1,020,955.60     729,044.40   7.55%         55,042.85
                US DEPARTMENT OF
RW89945955                                4,051,200.00     3,412,217.74    638,982.26    9.49%         60,639.42
                ENERGY
                USACE-C/O USACE
RW96944308                                 624,699.00       369,009.41     255,689.59    10.14%        25,926.92
                FINANCE CENTER
RW96950504      COE/NEW ORLEANS             785,223.00       237,502.70    547,720.30    9.80%         53,676.59
RW96950520      COE/NEW ORLEANS           1,971,907.00     1,545,227.78    426,679.22    9.80%         41,814.56
                DOA, USDA FOREST
RW12923097                                1,750,000.00     1,466,957.91    283,042.09    9.80%         27,738.12
                SERVICE
RW19923377      DOS/OES-DRL/EX/FMD        3,820,000.00     2,500,000.00   1,320,000.00   4.49%         59,268.00
                DISASTER FINANCE
RW58950477                              214,762,528.00   210,666,236.86   4,096,291.14   9.80%        401,436.53
                CENTER
RW72922607      USAID/EL SALVADOR         4,494,155.00     3,751,815.41    742,339.59    4.49%         33,331.05
RW86921823      DEPT OF HUD               4,046,000.00     3,291,217.72    754,782.28    6.21%         46,871.98
                DOE, OFFICE OF HDQTRS
RW89939695                                7,096,000.00     5,060,000.00   2,036,000.00   6.44%        131,118.40
                DIV
RW96950486      COE/NEW ORLEANS          17,110,594.00    16,018,446.88   1,092,147.12   9.80%        107,030.42
RW96950522      COE/NEW ORLEANS          21,798,518.00    17,576,590.28   4,221,927.72   9.80%        413,748.92
RW96950527      COE/NEW ORLEANS          23,211,108.00    19,623,312.51   3,587,795.49   9.80%        351,603.96
RW97922769      DEPT OF DEFENSE          22,279,628.00    13,839,432.27   8,440,195.73   4.61%        389,093.02
Total                                                                                               $2,524,682.81
Source: OIG analysis




        12-P-0835                                                                                       16
                                                                                   Appendix D

                                Agency Response




                                         July 12, 2012


MEMORANDUM

SUBJECT:      Response to the Office of Inspector General’s Audit: “EPA Could Recover More
              Indirect Costs under Reimbursable Interagency Agreements,” Project No. OA-
              FY12-0151, dated June 22, 2012

FROM:         Barbara J. Bennett /s/ Original Signed By:
              Chief Financial Officer

TO:           Arthur A. Elkins, Jr.
              Inspector General

Thank you for the opportunity to respond to the findings and recommendations in the subject
audit report. Attention to these issues should further strengthen the agency’s fiscal integrity.
Attached is our Corrective Action Plan in response to the specific draft report recommendations.
We disagree with the recommendation that the agency amend Reimbursable Interagency
Agreements awarded before the policy effective dates to include the ability to recover indirect
costs.

If you have any questions concerning the audit response, please contact Jeanne Conklin, Deputy
Director, Office of Financial Management at (202) 564-5342 or Ellen Rajewski of the Program
Costing Staff at (202) 564-4977.


Attachment

cc: 	Maryann Froehlich
     Joshua Baylson
     Stefan Silzer
     Jeanne Conklin
     Raffael Stein




12-P-0835                                                                                     17
    Melvin Visnick
    Janice Kern
    Howard Corcoran
    Francis Roth
    Armina Nolan
    Melissa Heist
    Paul Curtis
    Bill Samuel
    Janet Kasper
    Meshell Jones-Peeler
    Dale Miller
    John O’Connor
    Sandy Dickens
    Ellen Rajewski




12-P-0835                  18
                                                                                            Attachment 1

       Office of the Chief Financial Officer’s Response to the Office of the Inspector
                                    General Draft Audit

          “EPA Could Recover More Indirect Costs Under Reimbursable Interagency Agreements”
                               Project No. OA-FY12-0151, dated June 22, 2012

Rec.        OIG Recommendation                 Action               Proposed Action                 Proposed
No.                                           Official(s)                                          Completion
                                                                                                      Date
1.      Revise agency policy to clarify   OCFO              The U.S. Environmental                Completed
        that indirect costs should be                       Protection Agency concurs with        04/02/12
        included in all Reimbursable                        this recommendation. Interim IA
        Interagency Agreements unless a                     and Financial Policy notices were
        determination has been made                         sent to all IA Project Officers and
        that statutory authority used for                   the CFC by OFM and OGD.
        an RIA specifically exempts
        charging of indirect costs.
2.      Amend RIAs awarded before the OCFO,                 OCFO/OGD respectfully                 N/A
        policy effective dates to include OARM              disagrees with this
        the ability to recover indirect                     recommendation. Specific
        costs.                                              reasons are outlined below
3.      Revise agency policy to require       OCFO          The OCFO/OGD concurs with             7/10/12
        that amendments to all RIAs                         this recommendation. The OCFO
        include indirect costs based on                     policy update has been posted in
        current indirect rates.                             the RMDS.
4.      Correct the indirect cost rate        OCFO          OCFO/OGD concurs with this            On-going
        billing errors.                                     recommendation. The agency is
                                                            developing a cradle to grave
                                                            Standard Operating Procedures
                                                            on financial management of
                                                            RIAs. All existing RIAs that do
                                                            not have the appropriate indirect
                                                            cost rates applied will be
                                                            renegotiated if a new monetary
                                                            action is initiated by the program.
5.      Develop policy and procedures         OCFO          OCFO concurs with this                12/15/12
        to ensure that the correct indirect                 recommendation. The policy will
        costs rates are used.                               be posted in the RMDS.




       12-P-0835                                                                                        19
Response to Recommendation 2

The EPA disagrees with the OIG recommendation number two, amend RIAs awarded before the
policy effective dates to include the ability to recover indirect costs.

Implementing this recommendation is impractical for a number of reasons.

First, opening RIAs for the sole purpose of collecting indirect costs is not cost effective. In
addition to the time and effort of the Interagency Shared Service Centers, Project Officers would
need to renegotiate existing agreements to seek additional funding from our partner agencies
(funding the partners may not have available), and process new RIA amendments. The burden in
payroll costs would significantly offset any return. As an example of the scope, in FY 2011 and
FY 2012, fewer than 300 total actions (including amendments and no-cost extensions) have been
processed for reimbursable IAs.

Second, management and tracking of such an amendment process would be impractical. Given
the time and requirements necessary to negotiate and process amendments, these older awards
will continue to expire and be closed during the process. Additionally, depending upon the age
and funding sources of these awards, we would also need to manage multiple indirect rates
across each award.

Third, implementation of a policy retroactively is not recommended for practical reasons. We
cannot change the rules for the in-place RIAs that the agency negotiated and legally accepted.
We can, however, revise the rules and policies for future actions and educate the EPA on the new
policies while implementation is in progress. OCFO and OGD have begun this process.




12-P-0835                                                                                        20
                                                                                  Appendix E

                                     Distribution
Office of the Administrator
Chief Financial Officer
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Chief Financial Officer
Director, Office of Financial Management, Office of the Chief Financial Officer
Deputy Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Financial Services, Office of the Chief Financial Officer
Deputy Director, Office of Financial Services, Office of the Chief Financial Officer
Director, Financial Policy and Planning Staff, Office of the Chief Financial Officer
Director, Cincinnati Finance Center, Office of the Chief Financial Officer
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Grants and Interagency Agreements Management Division, Office of Administration
       and Resources Management
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Financial Management, Office of the Chief Financial
       Officer
Audit Follow-Up Coordinator, Office of Financial Services, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Financial Policy and Planning Staff, Office of the Chief Financial
       Officer
Audit Follow-Up Coordinator, Office of Grants and Debarment, Office of Administration and
       Resources Management




12-P-0835                                                                                    21
